Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare Payments for Psychiatric
  Services in Nursing Homes:

             A Follow-up




                       January 2001
                      OEI-02-99-00140
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

Demetra Arapakos, Project Leader
                    Bambi Straw, Program Specialist

Patricia Banta 
                                     Brian Ritchie, Director Technical Support

Lucille Cop, RN
                                     Scott Horning, Technical Support Staff

Miriam Gareau
                                       Barbara Tedesco, Technical Support Staff





  To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
                        EXECUTIVE                       SUMMARY

PURPOSE

          To assess the appropriateness of Medicare Part B payments for psychiatric services in
          nursing homes.

BACKGROUND

          This inspection, a follow-up to an Office of Inspector General report issued in May 1996
          entitled “Mental Health Services in Nursing Facilities” (OEI-02-91-00860), was
          conducted to determine what changes, if any, have occurred with Medicare reimbursement
          for psychiatric services in nursing homes. In the earlier report, the Inspector General
          found that nearly half of all Medicare psychiatric services in nursing facilities were either
          medically unnecessary (32 percent) or questionable (16 percent). The report also
          identified inadequate utilization guidelines and a lack of carrier policies and screens
          specific to nursing facilities.

          The Nursing Home Reform Act of 1987 mandates that each nursing home resident have a
          comprehensive initial and periodic assessment using a standard form called the Minimum
          Data Set, which includes a mental health evaluation and establishes the need for
          psychiatric services. These services include initial testing and evaluation, individual
          psychotherapy, pharmacological management, and group therapy. Claims for psychiatric
          services are processed and paid for by Medicare carriers that contract with the Health
          Care Financing Administration. Medicare payments for psychiatric services in nursing
          homes totaled approximately $211 million in 1998 and $194 million in 1999.

          Using a stratified random sample of 450 nursing home psychiatric services provided in the
          first 6 months of 1999, we combined 3 methods for this inspection: a medical record
          review, a beneficiary billing history review, and an analysis of carrier policies.


FINDINGS

Over one third of Medicare payments for psychiatric services in nursing homes
are inappropriate

          Our review found that 27 percent of psychiatric services provided in nursing homes are



Medicare Psychiatric Services in Nursing Homes      i                                   OEI-02-99-00140
          medically unnecessary. These services may represent as much as $22.6 million of
          inappropriate payments made in 1999 for the total Medicare population. More than half
          of unnecessary services are provided to individuals whose cognitive limitations make them
          unable to benefit from the psychiatric intervention, and about half have an inappropriate
          frequency and/or duration. Additionally, many medically unnecessary services do not
          appear to stabilize or improve patients’ conditions.

          Additionally, we found that 9 percent of services are lacking any psychiatric
          documentation. These services may represent as much as $8.2 million of inappropriate
          payments made in 1999 for the total Medicare population. These are services for which
          there is no psychiatric documentation in the patient’s nursing home records. Lastly,
          another 3 percent of services are questionable which may represent as much as $1.8
          million in inappropriate payments made in 1999 for the total Medicare population. Some
          of these are services with incomplete documentation, while others are questionable
          because of the patient’s cognitive function.

Psychological testing is the most problematic of the nursing home services
reviewed

          More than one third of psychological tests (39 percent) are medically unnecessary. These
          tests are often either too long, too frequent, or are not needed by the patient. Also, nearly
          one third of psychological tests being billed to HCFA under the testing code 96100 use
          instruments that our medical reviewer considers questionable. These are mostly
          questionnaires that are self-administered with no special scoring or need for professional
          interpretation.

Most carrier policies now specifically address psychiatric services in nursing
homes; however, utilization guidelines are inconsistent and unclear

          Since the prior Office of Inspector General study in 1995, more carriers have developed
          specific policies for psychiatric services provided in nursing homes. However, these
          policies are not always consistent or precise. Reimbursement guidelines are often broad;
          they do not clearly address appropriate diagnosis codes, treatment protocols, and
          parameters for frequency and duration of services. Also, some policies include specific
          examples of testing instruments while others do not. Lastly, carrier policies specifically
          address the Minimum Data Set for individual psychotherapy services only.


RECOMMENDATIONS

          Since the first Office of Inspector General report was issued, Medicare continues to pay



Medicare Psychiatric Services in Nursing Homes      ii                                  OEI-02-99-00140
          for some inappropriate nursing home psychiatric services.

          In order to address the factors identified in this report that lead to inappropriate
          reimbursement, we recommend that the billing process for psychiatric services in
          nursing homes be strengthened.

          The Health Care Financing Administration may want to consider the following options:

          C         Work with carriers to develop guidelines for the appropriate frequency and
                    duration of psychiatric services.
          C         Work with carriers and mental health providers to identify the specific instruments
                    that can be appropriately billed as psychological testing.
          C	        Encourage carriers to take advantage of the Minimum Data Set, particularly its
                    assessment of patient cognitive level, by using it to assess the appropriateness of
                    reimbursement for psychiatric services.

          We believe that implementing these recommendations would result in potential savings of
          as much as $30 million a year.

Comments

          We received comments on the draft report from the Health Care Financing Administration
          and they concur with our recommendations. Specifically, they will share our report with
          contractors and the carrier clinical workgroup on psychiatric services and work with them
          to strengthen the billing process for psychiatric services in nursing homes. The Health
          Care Financing Administration’s comments are in Appendix D.




Medicare Psychiatric Services in Nursing Homes       iii                                 OEI-02-99-00140
                          TABLE                         OF               CONTENTS


                                                                                                                                 PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          Inappropriate payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Problematic psychological testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Carrier policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


          A: Confidence intervals for key variables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          B: Confidence intervals for dollar projections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          C: Non-respondent analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          D: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





Medicare Psychiatric Services in Nursing Homes                      iv                                                OEI-02-99-00140
                                    INTRODUCTION

PURPOSE

          To assess the appropriateness of Medicare Part B payments for psychiatric services in
          nursing homes.


BACKGROUND

          This inspection, a follow-up to an Office of Inspector General (OIG) report issued in May
          1996 entitled “Mental Health Services in Nursing Facilities” (OEI-02-91-00860), was
          conducted to determine what changes, if any, have occurred with Medicare reimbursement
          for psychiatric services in nursing homes. In the earlier report, the Inspector General
          found that nearly half of all Medicare psychiatric services in nursing facilities were either
          medically unnecessary (32 percent) or questionable (16 percent). The report also
          identified several vulnerabilities in billings for these services, including inadequate
          utilization guidelines and a lack of carrier policies and screens specific to nursing homes.

          The first OIG report also raised the concern that some nursing home residents may not be
          receiving the mental health services they need. While this continues to be a concern, an
          assessment of whether nursing home residents are receiving all needed mental health
          services is outside the scope of this study.

Mental Illness in the Elderly

          As with the general population, older adults may have any of several mental disorders.
          The most prevalent disorders among the elderly include Alzheimer’s disease and other
          dementias, delirium, depression, cognitive complications of neurologic disorders (such as
          strokes), and anxiety disorders. A 1999 article in The American Journal of Geriatric
          Psychiatry entitled “The Impact of OBRA ‘87 on Psychiatric Services in Nursing Homes”
          reports that the prevalence of mental illness among nursing home residents is particularly
          high, where two of three residents have diagnosable mental disorders and one fourth have
          depression. Among nursing home residents, mental illness can complicate other medical
          illnesses and interfere with nursing and other health care. A variety of psychiatric services
          are available to treat mental disorders, including individual psychotherapy, group
          psychotherapy, and pharmacologic management.




Medicare Psychiatric Services in Nursing Homes      1                                   OEI-02-99-00140
Nursing Home Reform Act

          The comprehensive Nursing Home Reform Act (PL 100-203), enacted with the Omnibus
          Budget Reconciliation Act (OBRA) of 1987, expanded the requirements that nursing
          facilities had to meet for Medicare certification. The Nursing Home Reform Act requires
          pre-admission screening and annual resident reviews (PASARR) to determine: whether
          patients have a mental illness or mental retardation; whether they need active treatment;
          whether they need the level of nursing care provided by a nursing home; and whether the
          nursing facility can provide these needed services. Beyond the initial review, these
          reviews do not need to occur annually unless there is a “significant change in the physical
          or mental condition of a resident who is mentally ill or retarded.” The Act also requires
          that residents be given a full range of services to address their psycho-social needs and
          behavioral problems.

          The Nursing Home Reform Act also mandates that each nursing home resident have a
          comprehensive initial and periodic assessment using a standard form called the Minimum
          Data Set (MDS). The resident assessment addresses “cognitive patterns, mood and
          behavior patterns, psycho-social well-being, and special treatments and procedures.” A
          team of facility-based staff, together with the attending or consulting physician, reviews
          the assessment and develops a Resident Assessment Protocol (RAP). The RAP summary
          addresses 18 potential problem areas, including “delirium, cognitive loss, communication,
          psycho-social well-being, mood state, behavioral symptoms, and psychotropic drug use.”
          The resident assessment should be used to support the need for psychiatric services.

Medicare Coverage of Psychiatric Services

          Section 1862 (a)(1)(A) of the Social Security Act states that all Medicare Part B services,
          including psychiatric services, must be “reasonable and necessary for the diagnosis or
          treatment of an illness or injury or to improve the functioning of a malformed body
          member.” Payment is generally prohibited for medical services that are only for
          prevention, palliation, research, or experimentation.

          Psychiatric services are classified into 1 of 50 different codes in the Common Procedure
          Coding System HCFA uses for billing. They include initial testing and evaluation,
          individual psychotherapy, pharmacological management, and group therapy. Many codes
          specify the length of time the service should be provided and the place of service.

          The types of provider billing for psychiatric services have changed over the past several
          years. In 1990, the Medicare Part B psychiatric benefit was expanded to allow clinical
          psychologists and certified social workers, as well as psychiatrists, to bill for psychiatric
          services. However, beginning in 1999, certified social workers are no longer allowed to
          bill for psychiatric services in skilled nursing facilities.


Medicare Psychiatric Services in Nursing Homes       2                                    OEI-02-99-00140
Medicare Carriers

          Claims for psychiatric services are processed and paid for by Medicare carriers that
          contract with the Health Care Financing Administration (HCFA). While all carriers must
          follow basic Medicare guidelines, each develops its own policy for screening and payment
          purposes. Additionally, they develop specific medical criteria which must be met in order
          for the service to be considered necessary. Carrier policies generally require that
          documentation exist on the patient’s capacity to participate in and benefit from any
          therapy being provided. Carriers generally consider psychiatric services to be
          inappropriate if they are medically unnecessary, if they are not documented in the patient’s
          medical records, or if they do not meet coverage guidelines.

Trends in Medicare Reimbursement

          Following the expansion of the Medicare Part B psychiatric benefit in 1990, Medicare
          payments for psychiatric services in nursing facilities increased significantly in the early
          1990s. More recently, Medicare reimbursement for these services declined from
          approximately $221 million in 1996 to approximately $207 million in 1997, but increased
          again to around $211 million in 1998. In 1999, Medicare payments for psychiatric services
          in nursing homes totaled approximately $194 million.

          A few top services account for the majority of Medicare allowances for nursing home
          psychiatric services. They include individual psychotherapy, group psychotherapy,
          diagnostic interview, pharmacologic management, and psychological testing.

Related OIG Work

          The Office of Inspector General has completed other studies related to psychiatric
          services. For example, one series of reports was recently completed on services provided
          in community mental health centers and outpatient departments of both acute care and
          psychiatric hospitals. Also, one OIG study is currently being conducted which examines
          Medicare Part B psychiatric services provided in physicians offices, as well as other
          settings outside of nursing homes. Lastly, another study is looking at mental health
          services provided to Medicaid nursing home residents between the ages of 22 and 64.


METHODOLOGY

          We combined three methods for this inspection: a medical record review, a beneficiary
          billing history review, and an analysis of carrier policies.




Medicare Psychiatric Services in Nursing Homes     3                                   OEI-02-99-00140
Sample

          We limited our sample to five of the top seven codes for nursing home psychiatric
          services. These five codes are: 90818 (individual psychotherapy, 45 minutes); 90816
          (individual psychotherapy, 25 minutes); 90817 (individual psychotherapy with medical
          evaluation and management); 90853 (group psychotherapy); and 96100 (psychological
          testing). These five codes accounted for the large majority (91 percent) of all Medicare
          Part B nursing home psychiatric payments in 1998. They were also identified in the first
          OIG study as being among the most problematic codes.

          From a 1 percent sample of the National Claims History File, we selected a national
          stratified random sample of 450 line items from the first 6 months of 1999. We stratified
          these line items into the following 3 strata: 161 individual psychotherapy services; 143
          group psychotherapy services; and 146 psychological testing services, which is the
          universe of psychological testing services provided in the one percent file during our
          sampling time frame. We limited our sample to place-of-service codes 31 (nursing
          facility) and 32 (skilled nursing facility).

Medical record review

          For each of the line items in our sample, we identified the beneficiary and the nursing

          facility where the service was provided. The 450 line items in our sample were provided

          to 274 different beneficiaries in 251 different nursing homes. From each of these nursing

          homes, we requested the beneficiary’s medical records, including any psychiatric

          assessments. We collected records between January and April 2000. 


          We received a response for 365 services, for an overall response rate of 81 percent (see

          Appendix C for a non-respondent analysis). Of these 365: 


          C         for 356 services, the nursing home provided a medical record; and

          C         for 9 services, the nursing home indicated they had no record of the patient.


          We used a medical record review contractor to review the medical records. We worked

          with the contractor and with one of the carrier medical directors to develop a screening

          instrument for the initial screening of the records. The screening instrument was based

          upon this carrier’s policies for psychiatric services and Medicare coverage guidelines. The

          American Association for Geriatric Psychiatry (AAGP) also commented on the draft

          screening instrument. A Master’s level psychologist then screened the records and passed

          any which failed the initial review to a psychiatrist or Ph.D. psychologist, who then made a

          final determination on medical necessity. (See Appendices A and B for confidence

          intervals on key estimates and dollar projections). 




Medicare Psychiatric Services in Nursing Homes        4                                  OEI-02-99-00140
          Many of the initial medical records from nursing homes did not include any specific
          psychiatric documentation. In all of these cases, we called the nursing home and
          specifically asked for documentation on the psychiatric service(s) provided. Even after
          this follow-up, we did not receive mental health documentation for all of the services in
          our sample. For these cases, the medical review contractor was not always able to make a
          determination on the medical necessity of the service based solely on the information
          provided in the medical record.

Beneficiary billing history review

          For each of the beneficiaries identified in our sample, we obtained their complete Medicare
          psychiatric billing history for the sampling time frame of the first 6 months of 1999. Using
          a structured review sheet, we reviewed the histories to determine any additional
          psychiatric services being provided, place of service, and the types of providers rendering
          the service(s). Since we did not sample by beneficiary, the results of this billing history
          review cannot be generalized to the entire Medicare population.

Analysis of carrier policies

          Lastly, we requested written policies for nursing home psychiatric services from all of the
          32 carriers identified in our sample, which resulted in 17 different policies. Using a
          structured review sheet, we evaluated each of the policies to determine what coverage
          guidelines and medical criteria carriers use when reimbursing for psychiatric services.

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Medicare Psychiatric Services in Nursing Homes     5                                   OEI-02-99-00140
                                                 FINDINGS

Over one third of Medicare payments for psychiatric services
in nursing homes are inappropriate.
          Our review found that 39 percent of nursing home psychiatric services are either medically
          unnecessary, have no mental health documentation, or are questionable.
          See Chart 1 below.
                                               Chart 1
                                Nursing Home Psychiatric Services:
                                       Medical Record Review




                                                                           Source: medical record review




                                                                           Twenty-seven
percent of services are medically unnecessary

          Twenty-seven percent of psychiatric services provided in nursing homes are medically
          unnecessary. These services may have represented as much as $22.6 million in
          inappropriate payments in 1999 for the total Medicare population. (This estimate is



Medicare Psychiatric Services in Nursing Homes      6                                    OEI-02-99-00140
          based on our sample from the first 6 months of 1999 which projected $11.3 million in
          inappropriate payments. It also assumes similar billing activity during the second half of
          1999.)

          Our review found two main keys that determine a lack of medical necessity: the patient’s
          cognitive level and the frequency and/or duration of the service. First, more than half of
          all unnecessary services are provided to individuals who have limited cognitive ability and
          therefore may not benefit from the psychiatric intervention. Services are being given to
          patients with, for example, advanced dementia, severe agitation, delusions, and paranoia.
          In some cases, the patient’s thinking is so disordered that he or she is not able to
          effectively communicate with the provider of the service. In one example, a patient with
          advanced dementia and depressive psychosis, who was unable to communicate verbally or
          non-verbally, was reportedly receiving full length individual psychotherapy sessions twice
          a week.

          Second, half of all unnecessary services have an inappropriate frequency and/or duration.
          Inappropriate frequency means that a service is provided too many times. A typical
          example of this is the same type of service (such as individual or group therapy) being
          repeated more than once on the same day. Inappropriate duration means either the length
          of the service or the course of the treatment is too long. In some instances, the therapy
          session is longer than the patient’s attention span. In other instances, patients are
          receiving individual psychotherapy for more than 6 months without any established need
          for the extended length of treatment.

          In addition to the reasons discussed above, many medically unnecessary psychiatric
          services do not appear to stabilize or improve patients’ conditions. One third of
          unnecessary services are being provided to patients who do not have the potential to
          benefit functionally from the psychiatric intervention: e.g., the intervention is not
          maintaining stability, preventing further decline, ameliorating behavioral disturbances, or
          relieving distressing symptoms. Further, there is often no reasonable expectation that the
          patient is capable of making a change as a result of the service and no evidence that the
          therapeutic goal has or can be achieved.

An additional nine percent of services have no psychiatric documentation

          Nine percent of all services lack any psychiatric documentation. These are services for
          which there is no documentation in the patient’s nursing home record for the psychiatric
          intervention payed for by Medicare. These services may represent as much as $8.2 million
          in payment that were inappropriately made in 1999 for the total Medicare population.
          (This estimate is based on our sample from the first 6 months of 1999 which projected
          $4.1 million in inappropriate payments. It also assumes billing activity was similar during
          both the first and second half of 1999.)



Medicare Psychiatric Services in Nursing Homes     7                                   OEI-02-99-00140
          Even in those clinical records that do have psychiatric documentation, it is not always
          complete. This documentation is often missing treatment goals, patient response and
          progress, the amount of time spent with the provider, or the estimated duration of
          treatment and/or number of sessions ordered.

Another three percent of services are medically questionable

          Three percent of psychiatric services are medically questionable. This represents $1.8
          million that Medicare may have inappropriately paid in 1999. (This estimate is based on
          our sample which projected $900,00 in questionable payments for the first 6 months of
          1999. It also assumes billing activity was similar during both the first and second half of
          1999.) Some of these are services for which our reviewer was unable to make a final
          determination on medical necessity due to incomplete documentation, while others are
          questionable because of the patient’s cognitive function.


Psychological testing is the most problematic of the nursing
home psychiatric services reviewed
More than one third of psychological tests are medically unnecessary

          Thirty-nine percent of testing is medically unnecessary. Psychological tests are used as an
          aid in the diagnosis and evaluation of mental illness or neuropsychological abnormalities.
          The testing code we reviewed, 96100, includes the psycho-diagnostic assessment of
          personality, psycho-pathology, emotionality, and intellectual abilities, with accompanying
          interpretation and report. Of the five codes in our sample, psychological testing is the
          only one which is generally provided by a psychologist rather than by a psychiatrist and is
          the only service that can be billed for multiple hours in the same day.

Excessive length and frequency and the lack of patient need are the main
problems with psychological testing

          Psychological tests are often either too long or too frequent. A test is considered too long
          when its length is not appropriate for the nature of the referral or for the patient’s level of
          impairment, motivation, endurance, or ability to cooperate. Many of the tests we
          reviewed lasted 6 or more hours or were given to patients who lacked the ability to
          undergo extensive testing. Furthermore, based on carrier policies, our reviewer
          considered a test too frequent when it is administered within 1 year of a previous test and
          the patient has not experienced a suspected change in mental illness or neuropsychological
          abnormality. In one case, a provider appears to routinely administer psychological testing
          to patients in a particular nursing home every 3 months.



Medicare Psychiatric Services in Nursing Homes       8                                   OEI-02-99-00140
          Additionally, testing is not always needed by the patient. First, the patient may be unable
          to benefit from the testing due to memory impairment, confusion, delusions, or dementia.
          Second, a clinical interview rather than a psychological test may be sufficient to assess the
          patient. Lastly, some testing is not being used to diagnose a suspected mental illness or to
          evaluate change in an already established mental illness, both of which are required by
          Medicare.

Use of questionable testing instruments is common

          One third of psychological tests being billed to HCFA under the testing code 96100 use
          instruments that our medical reviewer considers questionable. These instruments are
          questionnaires that are often self-administered with no special scoring or need for
          professional interpretation. Often, the medical reviewer notes that these tests should have
          been billed as psychological evaluations, under code 90801, rather than as psychological
          testing.

          Our reviewer identified a number of such questionable instruments that are billed under
          code 96100. These include the Geriatric Depression Scale, Templer Death Anxiety Exam,
          Abnormal Involuntary Movement Scale, and the Satisfaction with Life scale. For
          example, the short form Geriatric Depression Scale includes 15 ‘yes/no’ questions, such as
          “Are you basically satisfied with your life? and “Do you feel life is empty?” If patients
          answer ‘yes’ to five or more of these questions, they may be considered depressed.
          Further, the Satisfaction with Life Scale asks patients to rate their agreement, on a scale
          from one to seven, with five statements that include, “I am satisfied with life” and “If I
          could live my life over, I would change nothing.” The answers are then summed and a
          lower score indicates a possible need for psychiatric services.



Most carrier policies now specifically address psychiatric
services in nursing homes; however, utilization guidelines
are inconsistent and unclear
Carrier policies have improved since the prior OIG study

          Since the prior OIG study was completed in 1995, more carriers now have specific
          policies for psychiatric services provided in nursing homes. In 1995, only three carrier
          policies directly addressed psychiatric services in nursing homes. In comparison, most of
          the policies we reviewed (13 of 17) directly address these services. Furthermore, 11 of
          the 13 policies have specific sections for individual or groups of psychiatric service codes.




Medicare Psychiatric Services in Nursing Homes      9                                   OEI-02-99-00140
          Also, carrier policies now include more general information to guide reimbursement. A
          majority provide a description for each of the codes in our sample. Most additionally
          incorporate specific requirements for medical documentation. For example, most require
          that patients have a treatment plan and that documentation of patients’ mental health
          symptoms be included in their medical records. Lastly, most policies discuss place of
          service codes and the types of providers allowed to bill for psychiatric services, including
          explanations of “incident to” providers.

However, utilization guidelines are not always precise

          Despite the improvements noted above, our review of carrier policies reveals a lack of
          consistency and clarity. To begin with, a majority of policies do not provide a list of
          diagnosis codes that support the medical need for the services in our sample. In some
          instances, the reimbursement guidelines offered are very broad. For example, while most
          of the policies for group therapy provide a list of activities that cannot be billed under this
          code (such as socialization and recreational activities), only half offer a list of activities
          that can be appropriately billed under the group therapy code. Policies are also vague on
          the duration and frequency of services. One policy states, “The degree of functional
          impairment should be a factor in determining frequency and duration of the therapeutic
          services. Claims submitted for an unusual frequency or duration ... may result in a delay ...
          or denial,” but it does not offer additional guidelines on what constitutes “unusual”
          frequency or duration. Also, only half of the policies call for justification of longer
          individual psychotherapy visits.

          As discussed in the previous finding, psychological testing was the most problematic of
          the codes in our sample and carrier policies for this code are particularly lacking in
          specificity and consistency. Some policies include specific examples of appropriate testing
          instruments, while others do not. The policies also do not always clearly address the
          number of hours that can be reasonably billed under the psychological testing code.
          Further, carrier policies differ on what is deemed appropriate. For example, in one policy,
          the Beck Depression Inventory is listed as an acceptable test, while another policy
          specifically excludes this test.

          Lastly, carrier policies only specifically address the Minimum Data Set (MDS) for
          individual psychotherapy services. All nursing home residents receive a comprehensive
          assessment using a form called the MDS. The MDS includes an evaluation of their mental
          health status and should support their need for psychiatric services. Carrier policies
          require that certain sections of the MDS relating to mental health status be filled out in a
          specific way in order to support the need for individual psychotherapy services.




Medicare Psychiatric Services in Nursing Homes      10                                   OEI-02-99-00140
                           RECOMMENDATIONS


          Since the first Office of Inspector General report was issued, Medicare continues to pay
          for some inappropriate nursing home psychiatric services.

          In order to address the factors identified in this report that lead to inappropriate
          reimbursement, we recommend that the billing process for psychiatric services in
          nursing homes be strengthened.

          The Health Care Financing Administration may want to consider the following options:

          C         Work with carriers to develop guidelines for the appropriate frequency and
                    duration of psychiatric services.
          C         Work with carriers and mental health providers to identify the specific instruments
                    that can be appropriately billed as psychological testing.
          C	        Encourage carriers to take advantage of the Minimum Data Set, particularly its
                    assessment of patient cognitive level, by using it to assess the appropriateness of
                    reimbursement for psychiatric services.

          We believe that implementing these recommendations would result in potential savings of
          as much as $30 million a year.

Comments

          We received comments on the draft report from the Health Care Financing Administration
          and they concur with our recommendations. Specifically, they will share our report with
          contractors and the carrier clinical workgroup on psychiatric services and work with them
          to strengthen the billing process for psychiatric services in nursing homes. The Health
          Care Financing Administration’s comments are in Appendix D.




Medicare Psychiatric Services in Nursing Homes       11                                  OEI-02-99-00140
                                                                            APPENDIX A


             CONFIDENCE INTERVALS FOR KEY VARIABLES

We calculated confidence intervals for five key variables. The point estimate and 95% confidence
interval are given for each.

                                                                  CONFIDENCE
            KEY VARIABLE                         POINT ESTIMATE    INTERVAL

 Medically unnecessary services                       27%           +/- 7.2%
 Services with no mental health
 documentation                                        9%             +/- 4.8%
 Questionable services                                3%             +/- 2.1%
 Medically necessary services                         61%            +/- 7.8%
 Medically unnecessary
 psychological testing                                39%            +/- 9.1%




Medicare Psychiatric Services in Nursing Homes        12                          OEI-02-99-00140
                                                                               APPENDIX B


     CONFIDENCE INTERVALS FOR DOLLAR PROJECTIONS
We calculated confidence intervals for our dollar projections. The projected total and 95%
confidence interval are given for each of the following:


                                                                    CONFIDENCE
            KEY ESTIMATE                         PROJECTED TOTAL     INTERVAL

 Medically unnecessary
 services                                          $11,303,058.35   +/- $3,152,785.07
 Services with no mental
 health documentation                              $ 4,149,730.04   +/- $2,054,295.24
 Questionable services                             $   920,814.33   +/-   $780,994.88




Medicare Psychiatric Services in Nursing Homes          13                         OEI-02-99-00140
                                                                                   APPENDIX C


                                NON-RESPONDENT ANALYSIS


          We tested for the presence of any non-response bias in our medical record review. For
          this analysis, a psychiatric service for which we did not receive a response is a non-
          respondent.

          To test for non-response bias in our medical record review, we obtained information from
          a 1 percent file of the HCFA’s National Claims History for all 450 line items in our
          sample. Of the 450 services, we received a response for 365 services, for an overall
          response rate of 81 percent. The following table illustrates the number of responses
          received and the response rate by strata.

                                                    RESPONSES           RESPONSE
                STRATA                              RECEIVED              RATE

                1 (Codes 90816, 90817, 90818)            125                78 %
                2 (Code 90853)                           127                89 %
                3 (Code 96100)                           113                77 %

          We analyzed 3 variables for the 450 services in our sample: gender, race, and place of
          service. These categorical variables were tested using Chi-square with the appropriate
          degrees of freedom. In order for the results to be statistically significant at the 95 percent
          confidence level, the Chi-square value must be higher than 3.84 with 1 degree of freedom.

          The results of this analysis are presented in Tables A, B, and C. The Chi-square values
          given in the tables provide a test of the difference between the distribution of respondents
          and of non-respondents for the variable of interest. Also provided in the tables are the
          response rates by the different values of the variables.

          Tables A, B, and C show no statistically significant differences between respondents and
          non-respondents for gender, race, and place of service. Given the results of this analysis,
          we believe that the inspection findings fairly represent the appropriateness of Medicare
          reimbursement for psychiatric services in nursing homes.




Medicare Psychiatric Services in Nursing Homes      14                                   OEI-02-99-00140
                                                       Table A
                                                 GENDER BY RESPONSE


                                                        Non-
                              Respondents            respondents        Total          Response rate
 Male                           158 (43%)             31     (36%)      189                 84 %
 Female                         207 (57%)             54     (64%)      261                 79 %
 Total                         365                     85                450                81 %
 Chi-square = 1.31 Degree of freedom = 1


                                                       Table B
                                                  RACE BY RESPONSE


                                                        Non-
                              Respondents            respondents       Total*          Response rate
 White                          280 (78%)             68     (81%)      348                 80 %
 Other                           80 (22%)             16     (19%)       96                 83 %
 Total                          360                    84                444               81 %
 Chi-square = .405 Degree of freedom = 1                              * No race reported for 6 services


                                                       Table C
                                       PLACE OF SERVICE BY RESPONSE


                                                        Non-
                              Respondents            respondents        Total          Response rate
 Nursing facility               185 (51%)             50     (59%)      235                 79 %
 Skilled nursing
 facility                       180 (49%)             35     (41%)      215                 84 %
 Total                          365                    85                450               81 %
 Chi-square = 1.83 Degree of freedom = 1




Medicare Psychiatric Services in Nursing Homes              15                           OEI-02-99-00140
                                                                            APPENDIX D


In this appendix, we present in full the comments from the Health Care Financing Administration.




Medicare Psychiatric Services in Nursing Homes   16                               OEI-02-99-00140
Medicare Psychiatric Services in Nursing Homes   17   OEI-02-99-00140
Medicare Psychiatric Services in Nursing Homes   18   OEI-02-99-00140
Medicare Psychiatric Services in Nursing Homes   19   OEI-02-99-00140
